WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Riley

20-5618
v.

Noeth
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
- Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

D I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the T ar of this Court. Should a response be requested, the response
will be file.
Signatur
Date.

September 10, 2020

(Type or print) Name

Michelle Maerov
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Office of the NYS Attorney General

Address

28 Liberty St., 14th Fl.

City & State
Phone

New York, NY

212-416-6242

Zip
Email

10005

Michelle.Maerov@ag.ny.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jesse Siegel, Esq.

RECEIVED
SEP 2 3 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

